U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530
December 21, 2020

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Louis Anthony Jackson v. USA,
S.Ct No. 20-6466

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
16, 2020 and placed on the docket on November 27, 2020. The government’s response is due on
December 28, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6466
JACKSON, LOUIS ANTHONY
USA

LOUIS ATHONY JACKSON
11067-007
US PENITENTIARY
PO BOX 1000
LAVENWORTH, KS 66048

